               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Innovation Best Practices Analysis

                       Audit Report




                                          December 19, 2011

Report Number CI-AR-12-001
                                                                   December 19, 2011

                                                Innovation Best Practices Analysis

                                                        Report Number CI-AR-12-001




IMPACT ON:
The U.S. Postal Service’s innovation           1. Leadership should provide
process and stakeholders who bring                strategic direction to focus
ideas for consideration to the Postal             innovation on the right outcomes.
Service.                                       2. Leadership should communicate
                                                  the innovation strategy
WHY THE OIG DID THE AUDIT:                        throughout the Postal Service
Our objective was to identify and learn           and with stakeholders.
about innovation best                          3. Dedicate full time staffing to
practices/processes that can be                   innovation.
considered for use by the Postal               4. Establish a process to manage
Service.                                          innovation within the Postal
                                                  Service and with stakeholders.
WHAT THE OIG FOUND:                            5. Encourage sharing and cross-
As a result of examining innovation               pollination of ideas across the
practices at 14 organizations recognized          postal community.
as leaders in innovation, we identified        6. Establish dedicated funding for
19 best practices that can be considered          innovation.
for use by the Postal Service. The best
practices fall into six categories: (1)     We also recommended the remaining
integrating innovation and business         13 best practices be phased in over the
strategies, (2) creating and capturing      subsequent 24 months and that the
new ideas from internal and external        postmaster general and chief executive
sources, (3) deciding which innovations     officer incorporate innovation planning
to pursue, (4) evaluating the progress of   into the Postal Service’s strategic plan
each innovation initiative, (5) managing    by March 30, 2012.
the relationship between innovation
activity and ongoing work, and (6)          WHAT MANAGEMENT SAID:
instituting key foundational elements to    Management agrees that it could more
foster innovation.                          formally document and improve
                                            innovation and innovation process
WHAT THE OIG RECOMMENDED:                   management throughout the Postal
We identified 19 best practices the         Service.
Postal Service can consider using. We       AUDITORS’ COMMENTS:
recommended implementation of the           Management was responsive to two of
following six of the best practices by      our three recommendations.
September 30, 2012:
                                            Link to review the entire report
December 19, 2011

MEMORANDUM FOR:                   PATRICK R. DONAHOE
                                  POSTMASTER GENERAL AND
                                  CHIEF EXECUTIVE OFFICER

                                        E-Signed by Mark Duda
                                     VERIFY authenticity with e-Sign




FROM:                             Mark W. Duda
                                  Assistant Inspector General
                                   for Audit

SUBJECT:                          Audit Report – Innovation Best Practices Analysis
                                  (Report Number CI-AR-12-001)


This report presents the results of our audit of Innovation Best Practices Analysis
(Project Number 11WG005CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation, and Optimization, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Paul E. Vogel
    Corporate Audit and Response Management
Innovation Best Practices Analysis                                                                                      CI-AR-12-001



                                                 TABLE OF CONTENTS




Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 2

Recommendations .............................................................................................................. 4

Management’s Comments .................................................................................................. 5

Evaluation of Management’s Comments ............................................................................ 5

Appendix A: Additional Information..................................................................................... 6

   Background ...................................................................................................................... 6

   Objective, Scope, and Methodology ............................................................................... 6

   Prior Audit Coverage ....................................................................................................... 9


Appendix B: Integrating Innovation Strategy into the Business Strategy ........................ 10

Appendix C: Creating and Capturing New Ideas from Internal and External Sources ... 12

Appendix D: Deciding Which Innovations to Pursue........................................................ 16

Appendix E: Evaluating the Progress of Each Innovation Initiative ................................. 20

Appendix F: Managing the Relationship between Innovation Activity and
Ongoing Work .................................................................................................................... 23

Appendix G: Other Key Foundational Elements Necessary to Effectively Foster
Innovation .......................................................................................................................... 24

Appendix H: Management’s Comments ........................................................................... 27
Innovation Best Practices Analysis                                                                 CI-AR-12-001



Introduction

This report presents the results of our audit of Innovation Best Practices Analysis
(Project Number 11WG005CI000). Our objective was to identify and learn about
innovation best practices/processes the U.S. Postal Service can consider using. This
self-initiated audit addresses strategic risk.

This is the second of two projects about innovation at the Postal Service. Our first
report was The Postal Service’s Innovation Process for Competitive and Market-
Dominant Products (Report Number MS-AR-11-004, dated June 8, 2011). We noted
that, despite facing regulatory and market constraints to innovation that private
companies do not face, the Postal Service has introduced innovations such as Priority
Mail® Flat Rate Boxes, the Intelligent Mail barcode, and Simplified Addressing.
However, the Postal Service does not have a formal innovation process or strategy for
itself or one that partners with stakeholders to grow new revenue streams.

Innovation is the process by which individuals and organizations generate new ideas
and put them into practice. 1 Innovation differs from invention in that invention is the first
occurrence of an idea for a new product or process, while innovation “is the art of
perfecting that into something that actually creates value. Invention is the spark but
innovation is what actually people will pay for.” 2

Innovation can be critical to the success and longevity of any organization. For
example, one of the companies we analyzed attributes $8 billion of its annual revenue
to its transformation through innovation from a product-driven business into a services-
driven business.

The U.S. Postal Service Office of Inspector General (OIG) conducted best
practices/processes research with the assistance of a contractor, to identify how
leading private sector organizations foster and institutionalize innovation. We
interviewed individuals at 14 companies 3 from a variety of industries:

            Corporation
   Google Inc.
   I     Corporation
   Intuit Inc.
                      Corporation
   McDonald’s Corporation
   Philips Design
               Corporation
               nc.
   Swiss Post International

1
  A Strategy for American Innovation, Securing Our Economic Growth and Prosperity, National Economic Council,
Council of Economic Advisers, and Office of Science and Technology Policy, February 2011, page 7.
2
  Dow Chemical video, Innovation: 2009 Investor Day. http://www.dow.com/innovation/
3
  An OIG auditor was present during each interview.
                                                       1
Innovation Best Practices Analysis                                              CI-AR-12-001



   Toyota Motor N. America, Inc.
   Walgreen Co.
   The world’s largest retailer
   Xerox Corporation

The interviews focused on six questions about innovation:

1. How do organizations integrate innovation strategy into business strategy?

2. How do organizations create and capture new ideas from internal and external
   sources?

3. How do organizations decide which innovations to pursue?

4. How do organizations evaluate the progress of each innovation initiative?

5. How do organizations manage the relationship between the innovation activity and
   ongoing work?

6. What are other key foundational elements necessary to effectively foster
   innovation?

We explain these best practices and provide examples of how the companies apply
them in detail in the appendices to this report.

See Appendix A for additional information about this audit.

Conclusion

Embracing innovation allows a company to keep up with its customers’ changing
needs, competitors, and society more broadly. Innovation creates game-changing
outcomes for a business. Our work with the companies interviewed identified 19 best
practices, which the Postal Service can consider in order to foster and institutionalize a
strong culture and capability for innovation. While it may not be practical for the Postal
Service to implement all 19 best practices at once, they should implement them over a
2- to 3-year period. We believe management should implement these best practices in
three phases.

The first phase would be an establishment phase to establish a formal innovation
process for the Postal Service and its stakeholders and include the following six best
practices:

   Provide strategic direction to focus innovation on the right outcomes.

   Communicate the innovation strategy throughout the Postal Service and with
    stakeholders.



                                            2
Innovation Best Practices Analysis                                               CI-AR-12-001




          Dedicate full-time staffing to innovation.

   Establish a process to manage innovation within the Postal Service and with
    stakeholders.

   Encourage sharing and cross-pollination of ideas across the postal community.

   Establish dedicated funding for innovation.

The second phase would be an enhancement phase, building on the six best practices
implemented during the establishment phase. For example, partnering with external
parties and employing multidisciplinary teams are logical extensions of dedicating full-
time staff to innovation. The enhancement phase should include the following six best
practices:

       Partner with stakeholders and others to gain new perspectives.

       Use multidisciplinary teams to focus on innovation.

       Catalog innovative ideas to improve knowledge management.

       Collaborate internally to create an effective handoff process.

      Use a portfolio approach to ensure the right mix of innovation initiatives is in the
    pipeline.

       Develop and sustain a culture of innovation.

The completion phase would finish the innovation management framework. Best
practices in this phase are closely aligned with those in the earlier phases. For
example, learning from failure is a logical extension of determining a framework for
managing innovation initiatives and cataloging ideas. The completion phase should
include the following seven best practices:

       Learn from failure.

       Use milestones to manage risk and opportunity.

       Leverage data to estimate how an initiative will perform before it is implemented.

       Track the innovation initiative’s financial performance post-implementation.

       For service innovation in particular, measure reach, value per customer, and the
    rate of innovation.


                                               3
Innovation Best Practices Analysis                                               CI-AR-12-001




      Establish ethnography, observational, and behavioral research as part of the
    innovation process.

      Make funds available for off-cycle ideas that do not coincide with typical budget
    processes.

In summary, a strong innovation culture needs openness and collaboration along with
risk taking and a willingness to disrupt current lines of business. In addition, innovation
should be separately funded to protect it from day-to-day operational demands and
demonstrate the level of commitment. Without separate funding, potentially lucrative
initiatives may never be explored due to competing demands and priorities.

Recommendations

We recommend the postmaster general and chief executive officer:

1. Incorporate innovation planning into the Postal Service’s strategic plan by
   March 30, 2012.

2. Develop a time-phased plan to implement the first six best practices listed by
   September 30, 2012.

3. Develop a time-phased plan to implement the remaining 13 best practices over the
   subsequent 24 months after implementing the first six best practices.




                                             4
Innovation Best Practices Analysis                                               CI-AR-12-001



Management’s Comments

Management agrees that it could more formally document and improve innovation and
innovation process management throughout the Postal Service. Management notes
that the Postal Service has been extremely innovative, particularly in its engineering
and operational processes, implementing innovative ideas that contribute to lower
costs, higher mail volumes or retention of mail volume. Postal Service management
and McKinsey and Co. have evaluated over 100 such ideas. The Postal Service faces
legal and regulatory constraints that preclude it from developing new products and
services.

Management conditionally agrees with recommendation 1, noting that the November
2011 Comprehensive Statement on Postal Operations includes a review of postal
strategies. In response to recommendation 2, management suggests that its DRIVE
(Delivering Results, Innovation, Value and Efficiency) initiative aligns with the six best
practices that we suggest be implemented by September 2012. Management plans to
implement recommendation 3 in less than 24 months, assuming it gains greater
operational and market flexibility through legislative and regulatory change. See
Appendix H for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1 and 2. However, management’s
comments on recommendation 3 are not fully responsive. We do not believe that any
new legislative or regulatory authority is needed to implement the best practices
identified in the report. Although there is disagreement with this recommendation, we
do not intend to elevate this issue to audit resolution. However, OIG plans to conduct
significant follow-up work in the innovation area.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation(s) can be closed.




                                             5
Innovation Best Practices Analysis                                                                 CI-AR-12-001




                               Appendix A: Additional Information

Background

Innovation is the process by which individuals and organizations generate new ideas
and put them into practice. 4 Innovation differs from invention in that invention is the first
occurrence of an idea for a new product or process, while innovation “is the art of
perfecting that into something that actually creates value. Invention is the spark but
innovation is what actually people will pay for.” 5

The essence of innovation is to “first find the problem, and then create the solution.” 6
For example, “Facebook enabled people to organize their social networks . . . . It was
an instant hit because it met a need. It organized social life at Harvard.” 7

Innovation is particularly important for the Postal Service, as declining revenue, the
struggling national economy, and the increasingly digital nature of the world threaten its
core business. To be effective at institutionalizing innovation, the Postal Service must
systematically address and manage innovation for the agency as a whole.

Objective, Scope, and Methodology

Our objective was to identify and learn about innovation best practices/processes the
Postal Service can consider using. To accomplish our objective we engaged Kaiser
Associates to work with us to conduct best practices research to identify how leading
private sector companies foster and institutionalize innovation. We selected Kaiser
Associates based on their extensive expertise in comparative analysis, as well as the
innovation subject matter expertise of their partner firm, Peer Insight. In total, we
interviewed individuals at 14 companies from a variety of industries. The interviews
focused on the following essential components of innovation:

1. How do organizations integrate innovation strategy into business strategy?

2. How do organizations create and capture new ideas from internal and external
   sources?

3. How do organizations decide which innovations to pursue?

4. How do organizations evaluate the progress of each innovation initiative?

5. How do organizations manage the relationship between the innovation activity and
   ongoing work?

4
  A Strategy for American Innovation, Securing Our Economic Growth and Prosperity, National Economic Council,
Council of Economic Advisers, and Office of Science and Technology Policy, February 2011, page 7.
5
  Dow Chemical video, Innovation: 2009 Investor Day. http://www.dow.com/innovation/
6
  Jeff Jarvis, What Would Google Do? (NY, HarperCollins Publishers, 2009), page 113.
7
  Ibid, p. 49.


                                                       6
Innovation Best Practices Analysis                                                                 CI-AR-12-001



6. What are other key foundational elements necessary to effectively foster
   innovation?

Kaiser conducted secondary research on innovation practices with private sector
companies and received input from the OIG on which companies to study. Kaiser
considered companies recognized by Bloomberg Businessweek, Fast Company, and
Harvard Business Review for innovation excellence as a starting point. Kaiser then
contacted senior individuals at selected companies to schedule primary research
interviews on behalf of the OIG. Each interviewee was screened prior to the interview
to ensure that they could credibly speak to the OIG’s innovation questions.

A list of profiled organizations and their recognition for innovation is included below,
along with a list of representative titles of the interviewees:

Organization                                     Recognition for Innovation
                              Recipient of IBM’s Information On Demand Innovation Award in 2009 for
                               developing its own information management system.
    Corporation
                              Partner with and competitor of the Postal Service.
                              Ranked as one of the top most innovative companies by Fast Company in
                               2011.
    Google Inc.               Ranked as one of the top most innovative companies by Bloomberg
                               Businessweek in 2010.
                              Creator of the most popular search engine in the world.
                              Ranked as one of the top most innovative companies by Fast Company in
       Intel                   2011 and by Bloomberg Businessweek in 2010.
    Corporation               Recently committed $8 billion to building a new research lab in Oregon and
                               upgrading other American facilities.
                              Featured in Harvard Business Review for its unique approach to
         , Inc.                innovation.
                           •   Intuit’s founder was featured in Inc. Magazine on the topic of innovation.
                              Winner of a JEC Innovation Award 8 for leading innovations in the
                               manufacture of composite materials in 2010.
                              Winner of R&D magazine’s “100 greatest technologies” award for its work
                               with multifunctional optical coatings in 2010.
    Corporation
                              Winner of the “Technology Innovation Award” from Aviation Week & Space
                               Technology magazine in 2003.
                              Ranked as one of the top most innovative companies by Bloomberg
    McDonald’s                 Businessweek in 2010.
    Corporation               Featured in Fast Company magazine for its innovative customer service
                               design.
                              Stefano Marzano, CEO, was named one of four “Best Leaders” for
                               innovation by Bloomberg Businessweek in 2005.
Philips Design                Philips Design won Design Team of the Year by Design Zentrum
                               Nordrhein Westfalen (Germany) in 1998 and its products are in the
                               permanent collections of museums around the world.




8
 JEC Innovation Awards are given out by JEC Composites, which is an industry organization dedicated to
promoting composite materials internationally.


                                                       7
Innovation Best Practices Analysis                                                                       CI-AR-12-001




    Organization                                       Recognition for Innovation
                                    Their new instant coffee was recognized by Allegra Strategies as the
                                     “Most Innovative New Product of the Year” in 2009.
                                    CEO preaches the importance of innovation and insisted that innovation
     Corporation                     pipeline keep flowing even during the financial crisis.
                                    Featured by National Public Radio as a company that used innovation to
                                     help turn around sales.
                                    Winner of two Best of NeoCon Awards for innovation in 2010 for its
                                     invention of the Node™ desk chair and the SW_1 table.
                Inc.
                                    Partial owner of IDEO, recognized as one of the most innovative design
                                     companies for the last 15 years.
                                    Recipient of a 2011 World Mail Award for its creation of a “Swiss Post
      Swiss Post                     App” for mobile smart phones.
     International                  Same industry as the Postal Service.
                                    Potential model for postal and business model innovation. 9
                                    Toyota’s Camry Hybrid won Drive.com’s Green Innovation Award in
     Toyota Motor                    2010.
    North America,                  Ranked as one of the top most innovative companies by Bloomberg
         Inc.                        Businessweek in 2010.
                                    Inventor of the Prius, the first mass-produced hybrid vehicle in the world.
                                    Winner of an Innovation Award from the Center for Business Intelligence
                                     for its Patient Adherence Collaboration Project.
                                    Winner of a Chicago Innovation Award in 2002 for its Multi-language
    Walgreen Co.
                                     Prescription Label.
                                    Created a separate group dedicated to business model innovation in
                                     2009.
                                    Winner of the 2010 Grassroots Innovation Award issued by the Public
      The world’s                    Affairs Council.
    largest retailer.               Ranked as one of the top most innovative companies by Bloomberg
                                     Businessweek in 2010.
                                    Nominated for a 2011 Manning Innovation Award.
       Xerox                        Owner/operator of the Palo Alto Research Center where the personal
     Corporation                     computer, mouse, and Ethernet were invented.
                                    Files approximately 1,000 patents every year.

Representative Titles of Interviewees:
Senior Strategy and Innovation Manager
Principal, Design Thinking Practice
Senior Director of Corporate Innovation
Vice President of Innovation
Vice President of Concept and Design
Director of Strategy and Innovation
Director of Business Innovation
Head of Innovation Management

We conducted this performance audit from May through October 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those

9
    The term “business model development” refers to activity focused on new ways to deliver, gain or create value.


                                                           8
    Innovation Best Practices Analysis                                                      CI-AR-12-001



    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management on September 27, 2011, and included
    their comments where appropriate.

    Prior Audit Coverage

                                          Final
                           Report        Report
  Report Title             Number         Date                        Report Results
Postal Service’s       MS-AR-11-004      6/8/2011       Lack of a comprehensive innovation strategy,
Innovation Process                                      including systemic tracking and management
for Competitive                                         of innovative ideas, limits strategic vision and
and                                                     creates an organization that responds slowly
Market-Dominant                                         to a rapidly changing business and
Products                                                technological environment. We
                                                        recommended the Postal Service (1) work
                                                        toward legislative changes that will allow the
                                                        Postal Service more flexibility to introduce
                                                        new products and services and (2)
                                                        consider a comprehensive innovation
                                                        strategy that includes innovation teams that
                                                        are both independent of operations and
                                                        actively collaborate with outside
                                                        organizations or other generally accepted
                                                        innovation teams. The strategy should also
                                                        contain a system to support tracking and
                                                        management of innovative ideas that are
                                                        generated. Management agreed with the first
                                                        recommendation but disagreed with the
                                                        second, stating that there are already
                                                        processes for collaborating with customers
                                                        and outside organizations. Also,
                                                        management does not believe that investing
                                                        in additional innovation teams is appropriate,
                                                        given the legal and competitive constraints it
                                                        faces.




                                                    9
Innovation Best Practices Analysis                                            CI-AR-12-001



      Appendix B: Integrating Innovation Strategy into the Business Strategy

Note: In the examples provided in the appendices to this report we removed the
names of the companies to protect confidential business information.

Leadership plays a key role in integrating an innovation strategy into the Postal
Service’s business strategy by defining the vision, direction, and the areas around
which innovation should be focused. Leadership can proactively address naysayers
who are tied to existing operations, tradition or incumbent business models and reward
structures. Communication from the top about innovation strategy ensures that all
employees and stakeholders understand the outcomes they may be able to influence,
that innovation is a priority, and that success will be recognized and rewarded.

The following best practices describe how the companies we analyzed integrate their
innovation and business strategies.

Best Practice 1: Ensure that leadership provides strategic direction to focus
innovation on the right outcome.

        Example 1 – Leaders define goals and company direction
        Leadership clearly defines the customer values the company wants to deliver
        on. For example, the company leadership may say it “. . . is going to help its
        customers extract and manage valuable insights from their data” (helping
        customers create knowledge from information). The innovation team identifies
        needed technologies and investments in order to achieve the objectives. Thus,
        leadership defines the end point toward which the company is working and the
        innovation teams describe how to get there.

        Example 2 – Leadership sets lofty and specific targets
        The leadership provides top-down direction regarding what it wants the
        company to achieve by setting both high-level “lofty” goals, and more specific
        goals. This encourages innovators to dream big and sets expectations for the
        group. Leadership also identifies targeted areas of focus in order to guide
        innovation along with business strategy. For example, leadership’s decision to
        focus on innovations in the smart-phone and tablet industry led to a
        collaborative effort between the company’s internal innovation and research
        group and the business unit responsible for mobile technology.




                                            10
Innovation Best Practices Analysis                                               CI-AR-12-001



Best Practice 2: Ensure that leadership proactively communicates the
organization’s strategy.

        Example 1 – Strong partnership between senior leaders and the innovation
        team
        The team responsible for disruptive innovation works closely with senior
        leadership to ensure that consistent communication and alignment exists
        between the two groups. The close partnership directly links individuals making
        funding decisions and managing the business with the individuals responsible
        for innovating and creating new business models. The innovation team believes
        that establishing this alignment has been a key to the company’s innovation
        success.

        Example 2 – Executive meetings and all-employee webcasts
        Each year the top 300 company executives attend an off-site leadership kick-off
        meeting to discuss the direction of the company and the overall business
        strategy. New changes and new information are first disseminated through this
        meeting via the executives in attendance and each executive is then responsible
        for returning to his/her business unit and effectively cascading the information.

        The leadership team also holds quarterly webcasts for all employees covering
        changes, problems, and tough decisions the company is facing. For example,
        the company has undergone a transformation from a product-driven business
        into a services-driven business. The company moved a large portion of its
        business into information technology and business process outsourcing, which
        now generates around $10 billion in revenue. Such a transformation would not
        have been possible without tightly integrated and aligned communication from
        top leaders to help employees understand where the company was going and
        how employees could play a role in getting there.

        Example 3 – Leadership’s direct engagement with innovation initiatives
        The CEO takes a “hands on” approach to communicating about innovation. He
        decided to put his office on the same floor as the team working to develop the
        company’s next big product. This sort of hands-on leadership and direct
        engagement with innovation has resulted in rapid progress and effective
        execution. In the words of one senior executive, the CEO’s “. . . willingness to be
        there day to day, rather than just ‘parachuting’ in from time to time,” has made a
        big difference for the team and the success of the project

        The lesson is that in order for innovation to work, leadership must be involved
        early and often. If leadership does not see a new product or service until it is
        ready for its final pilot test, or even implementation, then there is a much less
        chance of that innovation receiving approval and support for further funding and
        exploration. The bottom line is that frequent and effective communication with
        leadership is critical for the success of innovation projects.




                                             11
Innovation Best Practices Analysis                                             CI-AR-12-001



    Appendix C: Creating and Capturing New Ideas from Internal and External
                                   Sources

Internal ideation occurs in a variety of ways and may be considered to be the
“messiest” part of the innovation process. There is no “one size fits all” approach.
Generally, inserting too much rigor at this early stage in the innovation process can
deter people from bringing forward great ideas.

The use of ethnography and observational and behavioral research to develop problem
statements and discover new areas of focus consistently emerged as a major theme
throughout the interview process. This does not refer to focus groups or surveys, as
some users cannot articulate what they need or want very well. Careful observation of
customers leads organizations to powerful findings and enables them to understand
and anticipate customer needs.

The following best practices describe the ways that companies create and capture new
ideas.

Best Practice 3: Conduct ethnography and observational and behavioral
research as part of the ideation and development process.

        Example – “Painstorming,” customer empathy, and ethnography
        processes
        When an innovation group identifies a business problem, it conducts an internal
        meeting called a “painstorm.” The painstorm examines all the touch-points
        between a customer and an agent or system. The team highlights all the areas
        where things are going wrong for the customer, as well as the areas of the
        interaction that make the customer happy. Painstorming asks:

           Who are the customers?
           What are they trying to do?
           What gets in the way?
           What is the root cause of that pain?
           How can we solve this pain?

Best Practice 4: Cross-pollinate and encourage the sharing of ideas across the
organization.

        Example – Cross-pollination of ideas through brainstorming, “fairs,” and a
        web portal
        The centralized team responsible for business model innovation works with
        employees from all across the company to ideate, serving informally as a
        centralized innovation coaching resource. In addition, the innovation team
        facilitates “idea fairs,” in effect a quarterly science fair where employees and
        senior leaders view other idea concepts submitted by employees. These fairs
        are intended to create a dialogue among employees and often spur completely



                                             12
Innovation Best Practices Analysis                                              CI-AR-12-001



        new ideas. The team is currently building a website where employees and
        customers can submit their ideas and describe consumer needs, which will
        create more openness and enable more idea sharing across the company.

Best Practice 5: Partner with external parties to gain new perspective and
leverage.

        Example 1 – External brainstorming partnership and idea portal for
        customers
        This company occasionally partners with outside vendors to bring in different
        perspectives on specific challenges. As the interviewee described it, “the biggest
        thing in brainstorming activity is to have openness to new ideas and not dismiss
        them because of risk. So partnering with external vendors gives you the ability
        to make sure the mindset is kept pure and you don’t end up diminishing ideas
        because they’re complicated.”

        Another way to partner with outsiders to generate ideas is through a web portal
        that captures ideas from customers. The website functions as an open forum,
        allowing customers to post their own ideas and then read and vote on other
        customers’ ideas. This voting mechanism provides a preliminary vetting process
        for the over 98,000 ideas submitted to the site with more than 100 implemented.

        Example 2 – Customer-led innovation
        One method of external partnership is customer-led innovation. The company
        recognized that, like many other product development companies, it was
        structured such that the research and innovation team was integrated (or
        essentially buried) within engineering and manufacturing, and thus isolated from
        customers. The sales professionals were typically the only people with direct
        customer contact and they would only communicate their customer insights to
        the marketing department. Although a separate research and innovation team
        existed, it was not part of the customer interaction equation.

        Now the research and innovation team works directly with customers by holding
        something it calls “dreaming sessions” where researchers and customers meet
        and discuss customer scenarios, problems, and challenges. The discussions
        revolve around how customers use technology in their lives and businesses,
        and where different pain points exist for them. Dreaming sessions try to answer
        questions such as:

           Does this innovation solve a problem?
           How might this customer use this technology?
           What should this technology do that it doesn’t currently do?
           What should we be doing that we’re not currently doing?

        These dreaming sessions are not focus groups because the innovation team
        does not ask customers how much they would pay for a product or which



                                             13
Innovation Best Practices Analysis                                                       CI-AR-12-001



           products they prefer. The goal is to get a solid understanding of what needs or
           requirements their technology could fulfill for the customer and to get some
           validation that an innovation is worth pursuing.

           Another company also works with what it calls “lead users.” Lead users are not
           first adopters of new technology, but are typically customers who, in the course
           of doing their own work, have had to be creative and come up with an
           interesting idea on how to improve their business. For example, NASA needed
           help to integrate its document sharing and collaboration tool (DocuShare) with
           XML technology. This was a difficult problem because it required NASA to
           maintain two separate systems. The company solved NASA’s problem by
           combining the two technologies, and the result was a new product, which NASA
           agreed to let the company sell to other customers.

Best Practice 6: Catalog ideas in order to improve knowledge management.

           Example 1 – Knowledge management tool
           This company developed a sophisticated knowledge management tool that goes
           beyond merely tracking ideas and functions as a web-based innovation and idea
           management platform. Previously the company used a structured database to
           keep track of innovation initiatives. An employee created the new knowledge
           management tool to enable innovators to build a team, get support, grow ideas,
           and collaborate. This knowledge management tool allows senior management
           to track the status of innovation projects. The platform has been so successful
           that the company now markets it to other companies.

           Example 2 – Use of SharePoint
           This company uses SharePoint 10 as a knowledge management tool for
           innovation. Prior to SharePoint, the institutional memory of innovation resided
           mainly in employees’ heads. It was nearly impossible to learn from mistakes and
           understand why projects failed in the past; either the information would be
           scattered across the company in personal file drives, or it was lost altogether.
           Now, each functional element of an innovation project has corresponding file
           folders (such as having folders for marketing, design, research, photos and
           images, etcetera.), and each phase of the innovation process also has its own
           folder.

           One interviewee described a recent situation that demonstrates the importance
           of capturing knowledge from failed innovation projects. His team would like to
           pursue a new initiative, but leadership is resisting because they say the
           company has tried similar projects in the past and each one failed. The team
           would like to study those failed projects to understand what went wrong and
           figure out a new way to make this idea work. Unfortunately, those projects
           occurred before the implementation of SharePoint, and the team is inefficiently
           searching for clues and answers to what happened. This anecdote illustrates
10
     SharePoint is a Microsoft information management and collaboration software tool.


                                                          14
Innovation Best Practices Analysis                                                  CI-AR-12-001



        why capturing ideas through a knowledge management system, even if the
        system is simple, is critical to the successful institutionalization of innovation
        within an organization.




                                              15
Innovation Best Practices Analysis                                               CI-AR-12-001



                   Appendix D: Deciding Which Innovations to Pursue

There is no “one size fits all” approach to selecting which innovation initiatives to
pursue. The Postal Service must create frameworks that fit its strategy and goals
and use them as guides for evaluating the potential risks and benefits of each
initiative.

The Postal Service should manage the types of projects it pursues and the
maturity of each project as a portfolio in order to strike a proper balance among
innovation investments. This helps to maintain a mix of safe, incremental projects
along with risky game-changing projects.

The Postal Service will need a system of milestones or stage gates in order to
manage risk at each stage in the process. It must take care not to overcomplicate
the process. Making it too cumbersome for employees, particularly in the early
phases, can deter individuals from bringing forth initiatives and delay the process
unnecessarily.

In addition to having an independent innovation budget, it is important for the
Postal Service to provide some off-cycle funding so that great ideas can be
pursued whenever they come up, as opposed to stifling them by waiting for the
following year’s budget process to occur. This is also important from a cultural
perspective, as it helps create an open environment that is receptive to ideas at
all times and prevents employees from being discouraged from bringing forth
ideas.

Best Practice 7: Establish a process to manage innovation within the Postal
Service and with stakeholders.

        Example – Creating an Innovation Framework
        This company’s overarching innovation framework was created by its CEO and
        involves four steps: thinking, developing a clear point of view, planning to
        implement, and implementing. In the words of the interviewee, “this is a great
        framework because it really gives you a path from not knowing what to do all the
        way through to implementing what to do.”

        The first step, thinking, refers to human-centered design research to identify
        customer problems and inspire ideation. This is the discovery phase of the
        innovation process and it is a necessary first step to identify opportunity areas
        for innovation.

        Following the research and subsequent analysis, the second step is creating a
        strong point of view about what the team should do with the problems and
        unmet needs it has identified. Ultimately, the team must decide ‘where are we
        trying to go with this idea?’ The company believes that question has to be
        answered clearly and explicitly from the beginning in order for the innovation to



                                             16
Innovation Best Practices Analysis                                               CI-AR-12-001



        be successful. As the interviewee stated, “All my experience has shown me that
        establishing a point of view is extremely important, and I spend a lot of time
        making sure my innovation teams have a strong, focused, relevant, and
        valuable point of view, because I know that the point of view is going to guide
        the team until the end of the project.” The company believes that these first two
        steps are the most important and most difficult steps in the innovation process.

        The third step is some loose form of prototyping. This could be a sketch, a
        written framework, a three-dimensional object, etcetera. The key is that it is
        done quickly. A prototype could be created, tested and then iterated all within
        the same week. This part of the process is highly iterative and is referred to as
        the “Express-Test-Cycle.”

Best Practice 8: Use a portfolio approach to ensure the right mix of innovation
initiatives is in the pipeline.

        Example – Portfolio of investment ideas
        This company treats its innovations as if they were a portfolio of investment
        ideas. The challenge this strategy presents is how the company should compare
        an array of 30 new ideas when each one may have a different intent or strategic
        purpose. To solve this problem, the company maps its ideas based on the
        newness of the technology and the newness of the market being targeted. Ideas
        that target completely new markets with truly new technologies would be
        considered one type of disruptive innovation and have the highest risk-reward
        profiles. On the other hand, ideas that target relatively established markets with
        slightly improved technology are considered incremental innovation — these
        ideas are the safest bets to be successful and the return on investment
        estimates are lower. The company tries to maintain a balanced and diversified
        set of innovation initiatives.

        Taking this portfolio approach is an important first step to improving the
        effectiveness and success of its decision-making process. It is also important to
        have a certain amount of tolerance for risk. As the interviewee said, “If [our
        company] only invested in its core business we wouldn’t be a $22 billion
        business today; it would be much closer to a $14 billion business. Being a
        growth-oriented company, we have weighted our portfolio with a fair amount of
        innovations focused on new markets and new technologies, and this has
        enabled us to outperform our peers that have invested in mostly cosmetic
        upgrades and incremental innovations.”




                                             17
Innovation Best Practices Analysis                                                  CI-AR-12-001



Best Practice 9: Use a system of milestones to effectively manage risk and
opportunity as an innovation initiative progresses.


        Example – Three-step stage gate
        This company uses a three-step stage gate process in order to vet ideas and
        manage risk. For the first stage individual employees submit “COSTAR
        proposals,” which outline the proposed innovation initiative. COSTAR stands for
        Customer, Opportunity, Solution, Team, Advantage, and Results. The outline
        must describe how the proposed innovation impacts each of the six COSTAR
        topics and the COSTAR outline is limited to a maximum of four pages.

        The innovation management team reads each employee submission to both
        preliminarily screen ideas and provide feedback to the innovator on how to
        improve the proposal. After this initial review and iteration, the proposal moves
        to the Management Committee, which meets once a month to fully review
        submitted COSTAR proposals and decide which new ideas to fund. The
        Management Committee is comprised of the company’s top 50 leaders, but only
        six of them attend each monthly meeting. At the meeting, the employee who
        submitted the COSTAR is given 5 minutes to present their idea, followed by a
        brief question and answer session. Next the Management Committee meets
        privately to discuss the proposal. The entire process takes half an hour and, if
        the project is approved, the employee may receive up to $60,000 to develop the
        idea further before the next stage gate. This first stage is intended to be a
        structured and efficient process for quickly getting money into the hands of
        people with good ideas.

        Before the next stage gate, the Management Committee requires the employee
        to develop a prototype and investigate the idea at a deeper level by meeting
        with and researching customers. At this “quality gate,” the company assesses
        the improvement of the product, the quality of the prototype, and areas for
        further exploration. The criteria at this stage become more stringent as the
        Management Committee assesses the innovation initiative by its risk, potential,
        newness, and the quality of the team.

        If the idea makes it through this second gate and the Management Committee
        approves it, it will receive further funding to conduct a pilot test. Again, the stage
        gate process is structured to be fast and efficient — some ideas move from the
        initial COSTAR stage through to the pilot stage in just 3 months.




                                              18
Innovation Best Practices Analysis                                              CI-AR-12-001




Best Practice 10: Make funds available for off-cycle ideas that do not coincide
with typical budget processes.

        Example – Seed funding and time “buy back” funding
        This company has a system for allocating “seed funding” as well as a unique
        program that allows employees flexibility to switch projects in order to pursue an
        important innovation initiative. If employees want to work on an off-cycle
        innovation project (one that has not been budgeted for), they can enter a
        quarterly competition for seed funding. To enter the competition, employees
        download and complete a proposal form, which requires them to write a few
        pages about the idea. After the proposals have been submitted, each idea is
        reviewed by a committee of the employees’ innovation and technical peers;
        management is not part of the process. The committee evaluates each proposal
        and it selects the best ideas to receive the seed funding. The funding is spread
        out as opposed to being one lump sum, and the committee establishes one or
        two milestones that the project must reach in order to receive the remaining
        funding.

        In certain instances the company also uses its “off-cycle purse” to allow
        employees to buy time back from their current projects in order to work on a new
        project. In other words, if employees want to pursue an innovation project, but
        the project conflicts with other responsibilities, the company will occasionally
        provide funding that allows employees to bring in another resource to do their
        main job while the employees focus on the innovation project. This program
        requires a great deal of manager discretion but represents a unique way for a
        company to demonstrate and foster its commitment to innovation.




                                            19
Innovation Best Practices Analysis                                                                      CI-AR-12-001



           Appendix E: Evaluating the Progress of Each Innovation Initiative

Measuring innovation is challenging because it involves new products and services for
which there may be little or no existing data about performance. However, the Postal
Service should develop a set of metrics against which to measure the success of an
innovation initiative.

If possible, evaluating an initiative’s financial performance is an important way to
evaluate its success, since commercialization is an important outcome of many
innovation initiatives.

Failure can be very valuable for the Postal Service if it takes the time to analyze
what went wrong and how it can change or improve something in the future. In
order to capture this learning a standard process must be in place. This increases
efficiency by saving time and money, as relying on institutional memory residing
in employees’ heads is insufficient.

Best Practice 11: Leverage all available data to make a best estimate of how a
new initiative will perform once it is implemented.

         Example – Scorecard and financial modeling
         Many early disruptive innovation projects are evaluated on a qualitative basis
         because they are in such early stages of development that there are typically no
         comparable products or developed markets to compare them to. Later in the
         development of an innovation initiative when it is time to decide whether to
         invest a large amount of money in an innovation, the company constructs a
         detailed financial model. This kind of analysis is reserved for projects that will
         become autonomous spin-offs or major new products the company has
         invented. The company uses all available data to create a model that could
         range from a traditional discounted cash flow model to a more complex
         options-type model.

         When the innovation team is asked to make a recommendation to the
         company’s executives regarding a risky and large investment, the team uses a
         commercial tool to run a Monte Carlo simulation. 11 This analysis allows the
         company to look at the spectrum of outcomes that could occur for a given a set
         of parameters and assumptions. Monte Carlo simulations are very
         time-consuming and expensive, but are good for building confidence in the
         value of large innovation investments. In the words of a senior innovation
         executive,

                   We probably do some of the most sophisticated business
                   modeling that exists, but it gives us great confidence in the
                   decisions we make. With investing in innovation our goal is to

11
   A Monte Carlo simulation refers to the use of algorithms and random sampling to estimate the probability or value
of something.


                                                         20
Innovation Best Practices Analysis                                                CI-AR-12-001



                 refine uncertainty. If we invest in the development of an idea
                 and the research results do nothing to narrow the scope of our
                 model’s parameters, then we will probably not advance that
                 project.

Best Practice 12: Consider the innovation initiative’s financial performance
post-implementation.

        Example – Commercialization Criteria
        One company defines innovation as invention plus realization plus
        commercialization. Commercialization is its most important measure for
        evaluating the success of an innovative product or service. Innovations are
        ultimately judged based on whether customers will actually pay for the newly
        developed product or service.

        This company tested a recent innovation by first launching it as an autonomous
        startup company. This forced the company to adapt to customers, and prove
        that a market actually existed for its services. This sort of final-implementation-
        testing helped prove that there was a market for the product, and convinced the
        company to create a larger business case for the product to be sold to the wider
        public in the fall of 2011.

Best Practice 13: Learn from failure by reviewing unsuccessful initiatives.

        Example – Correction of errors process
        This company uses an electronic database to permanently capture and catalog
        its unsuccessful innovation initiatives. Early in the developmental stages of a
        new project, the innovation team will search this database for any commonalities
        to past projects. As the interviewee said, “We want to make sure we’re not trying
        to reinvent the wheel every five years, so it’s important for us to learn from our
        past mistakes.”

        Once an initiative has been terminated, the innovation team goes through a
        review process that it calls “correction of errors.” The team meets and discusses
        what they learned and what they would have done differently to avoid the same
        problems. The discussion focuses on both the positives and negatives of the
        project and the ultimate goal is to establish a set of best practices for future
        projects. The correction of errors information is recorded and included in the
        project’s cataloged file.




                                             21
Innovation Best Practices Analysis                                             CI-AR-12-001




Best Practice 14: For service innovation in particular, consider reach, value per
customer, and the rate of innovation.

        Example – Metrics for service innovation initiatives
        This company uses three broad metrics to measure its innovation success. First,
        it looks at the reach of an innovation (such as the number of people affected per
        innovation). The larger this number, the stronger the innovation. Second, it
        examines the value appreciation per customer; the higher the value of the
        innovation being delivered, the better. Last, it considers the rate of innovation
        (such as the number of innovations over time).

        On a more detailed level, the company defines the value of an innovation by
        looking at its capability, efficiency, and relevance. Specifically, does the
        innovation increase capability and efficiency? The capability and efficiency
        metrics are numerical, driven by operations, research, and finance. For
        example, they might look at transactions per hour, or the number of customers
        per hour. Relevance is determined by customer research and the metrics are
        more qualitative. For example, they will track customer attitudes and use metrics
        similar to those they use in their customer satisfaction surveys.




                                            22
Innovation Best Practices Analysis                                                CI-AR-12-001



     Appendix F: Managing the Relationship between Innovation Activity and
                               Ongoing Work

The Postal Service can successfully manage the relationship between innovation
activity and ongoing work through close partnerships between the individuals
responsible for disruptive innovation and the Postal Service’s business units.
Communicating early and often with business units that will eventually manage new
products or services leads to a smoother handoff process that sets the new innovation
initiative up for success. Not communicating can result in confusion on the part of
business unit leaders who are responsible for taking over a particular innovation, as
well as cultural resistance.

There is no perfect method for collaboration between business units and innovation
teams as every organization is different, but the following examples describe how one
company manages the relationships among the business units and innovation teams.

Best Practice 15: Collaborate with business units in order to create an effective
handoff process.

        Example – Integration with business units:
        One of the last steps of the innovation process is to integrate the new product or
        service back into one of the existing lines of business. Although this step comes
        toward the end of the project, the integration of an innovation with a particular
        business unit actually begins much earlier in the process. After an idea passes
        the first stage gate (the COSTAR proposal), the employee or team responsible
        for the idea must get the signature of the Management Committee member from
        their respective business unit before they can develop a prototype and
        investigate the idea further. This first signature provides recognition from the
        business unit that it supports the funding and further exploration of an initiative.
        A second signature is required the next time the initiative goes before the
        Management Committee, providing more formal recognition and sponsorship of
        an idea by the business unit. By signing a proposal before the second stage
        gate the business unit agrees to pay 35 percent of all costs for the pilot test,
        assuming the idea gets approval from the Management Committee. This
        constraint helps guarantee that there is significant interest from the business
        unit to further develop an innovation.

        By building these steps into the innovation process, the innovation team and the
        business units are forced to consider and discuss the hand-off process from the
        beginning of the project. The company has found that fostering such integration
        conversations throughout the project helps make the transition much easier
        following the conclusion of a successful pilot test.




                                             23
Innovation Best Practices Analysis                                              CI-AR-12-001



 Appendix G: Other Key Foundational Elements Necessary to Effectively Foster
                                Innovation

The necessity for the Postal Service to devote individuals to innovation on a full-
time basis consistently emerged throughout the research as a key to innovation
success. This is because setting aside specific roles frees individuals in those
roles from the constraints of day-to-day operational work and creates a culture
more conducive to innovation. There are multiple ways for the Postal Service to
organize these roles, either embedded within various business units or as a
centralized, stand-alone team. Thirteen of the 14 profiled organizations have roles
dedicated to innovation.

Multidisciplinary teams are important because they will enable the Postal Service to
leverage varied experiences and perspectives and perform key activities related to
human-centered design. These activities include, but are not limited to, rapid
prototyping (both with products and services), observational research, piloting, testing,
and researching society to identify trends and future projections. The extent to which
profiled organizations conduct these activities varies from those who outsource many
of these tasks but conduct them on a regular basis to organizations with large teams
that not only directly employ the right type of talent, but put a significant amount of
effort into studying society now and what society will be like in the future.

The Postal Service must work to foster a culture of innovation that promotes
collaboration and openness, risk taking, appreciation for customer experience, and a
willingness to disrupt current lines of business. This requires strong buy-in and
commitment stemming from leadership, all the way down to front-line employees.

The Postal Service should establish separate funds for disruptive innovation initiatives.
Without separate funding, potentially lucrative initiatives may never be explored due to
competing demands and priorities. Isolating funding will demonstrate the Postal
Service’s investment in and commitment to innovation and support for disruptive,
game-changing initiatives.

Best Practice 16: Dedicate full-time staffing to innovation.

        Example – The division between innovation and regular business activity
        This company believes having a separate innovation group is a crucial element
        of its innovation success. The divide between innovation and regular business
        activity (and even research, more generally) is important because it frees the
        innovation team from operating under quarterly profit pressures, allowing the
        team to take a longer view and make longer-term investments. As one leader
        said, “If all of our innovation activity was aligned with today’s business we’d
        never be looking beyond the end of our nose.”

        Both internal and external evidence underscores the necessity of the separate
        innovation group. The company used to operate with a decentralized



                                            24
Innovation Best Practices Analysis                                               CI-AR-12-001



        development model (for example, with innovation groups siloed within individual
        business units), but leadership eventually realized this was inefficient because
        there was duplication of effort across the company. The company also
        recognized that the largest, strongest, and most innovative companies — some
        of whom they compete with — all maintain centralized research functions and
        innovation teams.

        A senior innovation executive pointed out that, while its innovation group
        comprises only 10 percent of the research and development organization, it
        generates over 50 percent of the company’s patent applications.

Best Practice 17: Employ multidisciplinary teams to focus on innovation.

        Example – Diverse innovation team
        A large, multidisciplinary team focuses on breakthrough innovations for this
        company as well as a few external clients. The team includes anthropologists,
        sociologists, psychologists, problem designers, direction designers, engineers,
        and people with competencies in numerous other areas. Often they will extend
        the team to include outside specialists and experts, depending on the scope of
        the innovation.

        The company believes that having a multidisciplinary team is important because
        it allows the innovation group to examine the world from many different angles.
        The variety of backgrounds on the team contributes to a better understanding of
        the social, cultural, and economic implications of its ethnographic research.
        Often the group’s research is focused on a specific geographical area and the
        nature of the multidisciplinary team ensures that every societal, economic,
        political, and business dynamic is captured and understood. This
        multidisciplinary team is a crucial element of the company’s research process
        and innovation success.

Best Practice 18: Develop a strong culture of innovation.

        Example – Open culture and unique physical environment
        In order to foster a strong culture of innovation, this company built an innovation
        center 30 minutes from its corporate headquarters. To distinguish it from the
        headquarters office, the center is casual, with no hierarchy and a collaborative
        environment where employees are not organized by functional teams. The
        organization believes this physical separation from headquarters is a crucial
        element to developing and nurturing a culture of innovation, because the
        innovation process needs to be completely free — both physically and mentally
        — from the company’s usual constraints.

        By creating a unique physical space and organizational structure, the company
        established a creative environment where the organization feels comfortable
        experimenting and opening their minds. Entire departments, such as Human



                                             25
Innovation Best Practices Analysis                                             CI-AR-12-001



        Resources or Finance, periodically host off-site meetings at the innovation
        center simply to hold brainstorming sessions because the groups feel they can
        be more creative there. Creating this space where people can have open
        conversations and feel comfortable sharing their ideas has been a key to
        fostering a culture of innovation.

Best Practice 19: Fund innovation separately.

        Example – Separate innovation budget
        This company has a separate budget created specifically to fund innovation
        projects that go through the organization’s well-structured stage gate process.
        The company needs a separate budget for these innovations because of how
        fast projects are processed and filtered through the different gates. Some ideas
        go from ideation to full pilot tests in as little as 3 months. Innovation would
        stagnate without this separate source of funds because the company would
        have to plan for each innovation project within the annual budget cycles of
        specific business units.




                                            26
Innovation Best Practices Analysis                             CI-AR-12-001




                           Appendix H: Management’s Comments




                                          27
Innovation Best Practices Analysis        CI-AR-12-001




                                     28
